Drder

Michigan Supreme Court
Lansing, Michigan
Bridget M. McCormack,

June 17,2020

ChiefJustice

159841

David F. Viviano,
ChiefJustice Pro Tem
Stephen J. Markman
Brian K. Zahra
Richard H. Bernstein
Elizabeth T. Clement
Megan K. Cavanagh,
Justices

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,

SC:159841
COA: 346627
Saginaw CC: 15-041631-FC

v
TIMOTHY RONALD HARE,
Defendant-Appellant.

By order of November 26, 2019, the prosecuting attorney was directed to answer
the application for leave to appeal the May 22, 2019 order of the Court of Appeals. On
order of the Court, the answer having been received, the application for leave to appeal is
again considered, and it is DENIED, because the defendant has failed to meet the burden
of establishing entitlement to relief under MCR 6.508(D).

Appendix A
ft
%
&

I

I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that the
foregoing is a true and complete copy of the order entered at the direction of the Court.
June 17, 2020

a0610

Appendix A

Clerk

]

Order

Michigan Supreme Court
Lansing, Michigan

November 26, 20! 9

Bridge! .ML McCormack,
Chid' lusbwr

159841

David F. Viviano,
Chief justice Pro Tvm

Stephen j, Mark mail
Brian K. Znhra
Richard H. Bernstein
Eliza berh 1*. Clement
Megan K. Cavan agh.

PEOPLE OF THE STATE OF MICHIGAN,
Plaintiff-Appellee,
■

v

TIMOTHY RONALD HARE,
Defendant-A ppel 1 a nt.

SC: 159841.
COA: 346627
Saginaw CC: 15-04163 RFC

On order of the Court, the application for leave to appeal the May 22, 2019 order
..of the Court of Appeals is considered. We DIRECT the Saginaw County Prosecuting
Attorney to answer the application for leave to appeal within 28 days after the date of this
order.
The application for.leave to appeal remains pending.

Appendix E
I, Larry S. Royster, Clerk of the Michigan Supreme Court, certify that (lie
foregoing is a true and complete copy if the order entered at the direction of the Court.
November 26,2019
dins

Clerk

jUKUCCS

V

Court of Appeals, State of Michigan
ORDER
People of MI v Timothy Ronald Hare

Brock A. Swartzle
Presiding Judge

Docket No.

346627

Patrick M. Meter

LC No.

15-041631-FC

Michael J. Kelly
Judges

The Court orders that the motion to waive fees is GRANTED for this case only.
The Court orders that the delayed application for leave to appeal is DENIED for lack of
merit in the grounds presented.

\j> c

£

Presiding Judge
M. J. Kelly, J., would remand to the trial court for an evidentiary hearing und decision on whether
defendant was denied the effective assistance of counsel. People v Ginther, 390 Mich 436 (1993).

Appendix B
A true copy entered and certified by Jerome W. Zimmer Jr., Chief Clerk , on

MAY 2 2 2019
Date

Appendix B

STATE OF MICHIGAN
IN THE CIRCUIT COURT FOR THE COUNTY OF SAGINAW

PEOPLE OF THE STATE OF
MICHIGAN,

File No. 15-04163 l-FC-5
Hon. Darnell Jackson

Plaintiff,
V
TIMOTHY RONALD HARE,
Defendant.
John A. McColgan, Jr. (P37168)
Saginaw County Prosecuting Attorney
111S. Michigan Avenue
Saginaw, MI 48602

ATRUECOPY^U
Michael J. Hanley, Clerk

Timothy Ronald Hare #981251
Defendant in Pro Per
Saginaw Correctional Facility
9625 Pierce Road
Freeland, MI 48623
OPINION AND ORDER DENYING DEFENDANT’S
MOTION FOR RELIEF FROM JUDGMENT
. At a session of said Court held in the Courthouse located in the City and County of
Saginaw, State of Michigan, on this 2TTiyVday of f'V.p'fefYl Dflf 2018.
PRESENT:

THE HONORABLE DARNELL JACKSON, CIRCUIT JUDGE.

This action is presently before the Court on Defendant’s Motion for Relief from
Judgment pursuant to MCR 6.500 et seq. After having thoroughly reviewed Defendant’s brief
and all documents filed therein together with the Court file, transcripts, and the applicable law,
the Court will deny the Motion.
On May 13, 2016, Defendant was convicted by a jury of two counts of second-degree
criminal sexual conduct (relationship) (CSC 2nd), contrary to MCL 750.520c(l)(b), and one
count of first-degree criminal sexual conduct (person under thirteen, Defendant seventeen years
of age or older) (CSC 1st), contrary to MCL 750.520b(2)(b). Defendant was acquitted of an
additional charge of CSC 1st, contrary to MCL 750.520b(2)(b). On June 27, 2016, Defendant was

Appendix C

sentenced to concurrent prison terms of 8 years to 15 years for the CSC 2nd convictions and 25
years to 50 years for the CSC 1st conviction. l
Following sentencing, Defendant requested, and was appointed, appellate counsel to
assist him in pursuing his appellate remedies. Thereafter, Defendant’s court-appointed appellate
counsel filed an appeal of right which was denied by the Court of Appeals in an unpublished per
curiam opinion dated October 12, 2017. See People v Hare, unpublished per curiam opinion of
the Court of Appeals, issued October 12, 2017 (Docket No. 33876). Defendant’s pro se
application for leave to appeal was also denied by the Supreme Court on April 3, 2018.
On September 5, 2018, Defendant filed the instant Motion for Relief from Judgment
pursuant to MCR 6.500 et seq. Subchapter 6.500 of the Michigan Court Rules establishes the
exclusive procedure for pursuing postappeal relief from a criminal conviction. People v
McSwain, 259 Mich App 654, 678; 676 NW2d 236 (2003). These rules are designed to balance
the finality of criminal judgments with the individual interests that may arise in an extraordinary
case. See People v Reed, 449 Mich 375, 389; 535 NW2d 496 (1995). To this end, MCR 6.508(D)
precludes relief from judgment unless the defendant demonstrate (a) good cause for failure to
raise the grounds for relief on appeal and (b) actual prejudice from the alleged irregularities that
support the claim for relief. McSwain, 259 Mich App at 678; MCR 6.508(D)(3)(a) and (b).
“Actual prejudice” means that “(i) in a conviction following a trial, but for the alleged error, the
defendant would have had a reasonable likely chance of acquittal; . . . (iii) in any case, the
irregularity was so offensive to the maintenance of a sound judicial process that the conviction
should not be allowed to stand regardless of its effect on the outcome of the case.” MCR
6.508(D)(3)(b)(i) and (iii).
In the instant Motion, Defendant argues that he is entitled to relief from judgment
because his trial counsel was ineffective for allegedly failing to inform Defendant of a plea offer
extended by the prosecution in a letter dated December 9, 2015. In that letter, assistant
prosecuting attorney Angelina Scarpelli stated in relevant part as follows:
The above matter is scheduled for jury trial on January 5, 2016.1 would make the
following offer to settle the matter: Defendant shall plead to 2 counts of CSC—1st
(relationship) with agreed upon guidelines of 81-135 and all remaining counts
would be dismissed. People would agree that the sentences would run concurrent
and the Court should stay within the guidelines. This would avoid the
mandatory minimum of 25 years on Counts 3 & 4.

1 As part of his sentences, Defendant was also ordered to register as a sex offender pursuant to the Sex Offenders
Registration Act and to be subject to lifetime electronic monitoring.

2
ft

Please review the above offer with your client as soon as possible. This offer will
expire on December 23, 2015 at 5:00 p.m. if I have not heard from you.
(Defendant’s Exhibit A) (emphasis in original).
Because the above ineffective assistance of trial counsel claim could have been raised in
Defendant’s appeal of right, MCR 6.508(D)(3)(a) requires Defendant to establish good cause for
his failure to raise it at that time as a prerequisite for obtaining relief from judgment. Here,
Defendant attempts to establish good cause by arguing that his appellate counsel was ineffective
for failing to raise this issue on appeal.

*

■

A claim of ineffective assistance of appellate counsel, if supported, is sufficient to satisfy
the good cause requirement of MCR 6.508(D)(3)(a). See People Kimble, 470 Mich 305, 314; 684
NW2d 669 (2004). However, a claim of ineffective assistance of appellate counsel cannot be
premised on the failure of counsel to pursue frivolous or meritless issues. See People v Gist, 188
Mich App 610, 613; 470 NW2d 475 (1991); People v Riley, 468 Mich 135, 142; 659 NW2d 611
(2003). As outlined below, Defendant’s instant ineffective assistance of trial counsel claim is
non-meritorious. Therefore, Defendant cannot demonstrate “good cause” within the meaning of
MCR 6.508(D)(3)(a) by showing that his appellate counsel was ineffective for failing to raise
this issue on appeal.
The two-prong test for ineffective assistance of counsel claims is set forth in Strickland v
Washington, 466 US 668 (1984). Under the Strickland performance prong, a defendant must
show “that counsel’s performance fell below an objective standard of reasonableness.” Id. at 688.
The Strickland prejudice prong requires a defendant to “show that there is a reasonable
probability that, but for counsel’s unprofessional errors, the result of the proceeding would have
been different.” Id. at 694.
In order to succeed on an ineffective assistance of trial counsel claim, the defendant must
establish both deficient performance by counsel and that counsel’s deficient performance caused
prejudice to the defendant. In Strickland, the Court explained that a court need not decide
whether counsel’s performance was deficient before examining the prejudice suffered by the
defendant as a result of counsel’s allegedly deficient performance. Thus, “[i]f it is easier to
dispose of an ineffectiveness claim on the ground of lack of sufficient prejudice, which we
expect will often be so, that course should be followed.” Id. at 697. As outlined below, in this
2 A court may waive MCR 6.508(D)(3)(a)’s “good cause” requirement only if it concludes that there is a significant
possibility that the defendant is innocent. In this case, the record contains strong evidence of Defendant’s guilt, and
Defendant’s Motion does not argue that he is actually innocent of the crimes that he was convicted of. Therefore,
the Court declines to waive the “good cause” requirement of MCR 6.508(D)(3)(a).

3

case, Defendant cannot satisfy the prejudice prong of his ineffective assistance of trial counsel
claim. Thus, the Court need not address the performance prong.
Here, Defendant asserts that trial counsel’s deficient performance deprived him of the
opportunity to accept the plea offer presented by the prosecution on December 9, 2015, and
caused him to suffer a more severe penalty when he was convicted after a trial. In Lafler v
Cooper, 566 US 156, 163 (2012), the Court held that in order to establish the prejudice prong of
the Strickland inquiry in this context, the defendant must show that: (1) he would have accepted
the plea offer; (2) the prosecutor would not have withdrawn the plea offer in light of intervening
circumstances; (3) the trial court would have accepted the defendant’s plea under the terms of the
bargain; and (4) the defendant’s conviction or sentence under the terms of the plea would have
been less severe than the conviction or sentence that was ultimately imposed. Lafler, 566 US at
164.
As to the first element of the Lafler inquiry, Defendant has executed an affidavit asserting
that he was never “shown, advised or informed” of the plea offer and that “I would have
ABSOLUTELY accepted that offer if I had been informed of it.” (Defendant’s Exhibit C—
Affidavit of Timothy Hare at
7 & 8). The Court questions whether Defendant would actually
have accepted the plea offer in light of his steadfast claim of innocence throughout the duration
of this action. Indeed, Defendant testified in his own defense at trial and denied committing any
acts of sexual abuse towards the victim, his biological daughter. (See Trial Transcript Vol II of
IV at 215-233).
Moreover, even if Defendant would have accepted the plea offer extended by the
prosecution, he cannot satisfy the remaining elements of the Lafler inquiry. Under the plea
agreement offered by the prosecution, Defendant would have plead guilty to two counts of CSC
1st in exchange for a dismissal of the CSC 2nd charges and the prosecutor’s recommendation that
the Court impose concurrent sentences within a stipulated sentencing guidelines range of 81
months (6 years, 9 months) to 135 months (11 years, 3 months). The prosecutor further
represented that the plea offer would avoid the mandatory 25-year minimum sentence on Counts
3 & 4 (the CSC 1st charges). This statement by the prosecution was incorrect.
Pursuant to MCL 750.520b(2)(b), CSC 1st is punishable by not less than 25 years “[f]or a
violation that is committed by an individual 17 years of age or older against an individual less
than 13 years of age[.]” Here, it is undisputed that Defendant was over 17 years of age and the
victim was less than 13 years of age at the time of the two penetrations that formed the basis of
the CSC 1st charges.3 Accordingly, under MCL 750.520b(2)(b), this Court lacked the authority to

3 During the preliminary examination and at trial, the victim testified that Defendant penetrated her vagina with a
sex toy when she was approximately 11 years old. The victim further testified that a few months later, Defendant

4

impose a minimum sentence of less than 25 years under the terms of the plea offered by the
prosecution. As such, the Court finds that Defendant cannot establish the final three prongs of
Lafler, specifically, that the prosecutor would not have withdrawn the plea offer in light of
intervening circumstances; that the Court would have accepted Defendant’s plea under the terms
proposed by the prosecutor; and that Defendant’s sentence under the plea offer would have been
less severe than the 25-year minimum sentence that was ultimately imposed $)y the Court
following his trial.
To be clear, even if Defendant would have accepted the prosecution’s plea offer to plead
guilty to two counts of CSC 1st, and the prosecutor had not withdrawn the offer, the Court would
not have followed the prosecutor’s recommendation to impose sentences within a stipulated
guidelines range of 81 months to 135 months. Instead, this Court would have followed the
Legislature’s directive under MCL 750.520b(2)(b), and wouid have imposed mandatory
minimum sentences of 25 years. Because Defendant’s sentences, if he had accepted the plea
agreement, would not have been less severe than the sentences he actually received, Defendant
was not prejudiced by his trial counsel’s purported failure to advise him of the plea offer
extended by the prosecution on December 9, 2015.
In closing, the Court finds that Defendant has not established entitlement to relief from
judgment under MCR 6.508(D). As outlined above, Defendant’s instant ineffective assistance of
counsel claim fails under the Strickland prejudice prong. Therefore, appellate counsel was not
obligated to raise this issue on appeal, and good cause has not been shown. MCR 6.508(D)(3)(a).
Additionally, Defendant has failed to show actual prejudice within the meaning of MCR
6.508(D)(3)(b)(i) or (iii). Accordingly, Defendant’s Motion for Relief from Judgment is
DENIED.
NOW, THEREFORE, IT IS HEREBY ORDERED that Defendant’s Motion for Relief
from Judgment is DENIED.

cDn o

DARNELL JACKSON
CIRCUIT JUDGE
CERTIFICATE OF SERVICE
I certify that a true copy of the foregoing was served upon all parties of record pursuant to MCR
8.105(C) and MCR 2.107(D).

Cf\IZll\R
Date

Deputy Clerk

raped her by putting his penis inside of her vagina. (See Preliminary Examination Transcript at 12-16; see also Trial
Transcript, Vol II at 22-25).

5

-*>

JOHN A. MCCOLGANrJR.
Saginaw County Prosecuting Attorney
Court House
111 South Michigan Avenue
Saginaw, Michigan 48602

[v**oeo ''

CHRISTOPHER S. BOYD
ChiefAssistant Prosecuting Attorney

December 9, 2015
Mr. William D. White
804 S. Hamilton St.
Saginaw, MI 48602
RE:

U:v-t.

People V. Timothy Ronald ISSHS"
15-041631-FC

Dear Mr. White:
The above matter is scheduled for jury trial on January 5,2016. I would make the
following offer to settle the matter: Defendant shall plead to 2 counts of CSC - 1st
(relationship) with agreed upon guidelines of 81 - 135 and all remaining counts would be
dismissed. People would agree that the sentences would run concurrent and the Court
should stay within the guidelines. This would avoid the mandatory minimum of 25
years on Counts 3 & 4,
It is my understanding the Victim testified in front of the Honorable Barbara Meter and
the Court found that the criminal sexual conduct had occurred. I expect that the Victim
will do just as well at the criminal jury trial. Additionally, the People had hired an expert
to explain to the jury the delayed and different reports of the child victim.
Please review the above offer with your client as soon as possible. This offer will expire
on December 23, 2015 at 5:00 pm if I have not heard from you. Please do not hesitate to
contact me if you have any questions concerns, or counter-offers. Thank you for your
attention to this matter and I await your response.
Very truly yours,

Angelma R. Scarpelli x
Assistant Prosecuting Attorney

Appendix D

PHONE (989) 790-5330

FAX (989) 792-0803

TDD (989) 790-5568

